UNITED STATES OF AMERICA v. MALIK NASIR. Appellant
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
2020 U.S. App. LEXIS 37489
No. 18-2888
November 12, 2019, Argued before Merits Panel Argued En Banc on June 24, 2020
December 1, 2020, Filed
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}On Appeal from the United States District Court for the District of Delaware.
(D.C. No. 1-16-cr-00015-001). District Judge: Hon. Leonard P. Stark.United States v. Nasir. 2017 U.S.
Dist. LEXIS 36813, 2017 WL 995206 (D. Del., Mar. 15, 2017)
Leigh M. Skipper, Brett G. Sweitzer, Keith M. Donoghue [ARGUED],
Federal Community Defender Office, For the Eastern District of Pennsylvania, Philadelphia,
PA, Counsel for Appellant.
Ilya Shapiro, Cato Institute, Washington, DC, Counsel for
Amicus Cato Institute.
Jared McClain, New Civil Liberties Alliance, Washington, DC,
Counsel for Amicus New Civil Liberties Alliance.
Evan A. Young, Baker Botts, Austin, TX, Counsel for National
Association of Home Builders, American Farm Bureau Federation, National Cattlemens Beef
Association, and National Mining Association.
David C. Weiss, Robert F. Kravetz [ARGUED], Whitney C.
Cloud [ARGUED], Daniel E. Logan, Jr., Office of United States Attorney, Wilmington, DE,
Counsel for Appellee.
Judges: Before: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
SCIRICA,* and RENDELL,* Circuit Judges.
Counsel

CASE SUMMARYUnder plain error review, defendant's conviction for possession of firearm by felon
under 18 U.S.C.S. § 922(g) could not stand and a new trial on that charge was required because, at trial
prior to the U.S. Supreme Court's opinion in Rehaif v. United States, literally no evidence was presented
as to defendant’s knowledge of his status as felon.
OVERVIEW: HOLDINGS: [1]-There was a legitimate basis for defendant's conviction under 21 U.S.C.S.
§ 856(a)(1) because subsection (a)(1) expressly prohibited "distributing" a controlled substance from any
rented place, and the jury was presented with more than ample evidence that defendant was doing just
that; [2]-Because inchoate crimes were not included in the definition of controlled substance offenses
given in USSG § 4B1.2(b), United States v. Hightower was overruled; [3]-Defendant's conviction under
18 U.S.C.S. § 922(g) could not stand because literally no evidence was presented as to defendant's
knowledge of his status as a felon. Whether viewed as a matter of the Fifth Amendment’s guarantee of
due process or the Sixth Amendment's promise of trial by jury, or both, a deprivation of those essential
rights seriously impugned the fairness, integrity and public reputation of judicial proceedings.
OUTCOME: Affirmed in part. Conviction as a felon in possession of a firearm and sentence vacated.

03CASES

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

33547183

I

Case remanded.

03CASES

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

33547183

{982 F.3d 149} OPINION OF THE COURT**
JORDAN, Circuit Judge.
On a tip, Malik Nasir was arrested near a storage unit in which he kept the marijuana {982 F.3d 150}
he was selling.{2020 U.S. App. LEXIS 2} He was subsequently charged with, and convicted of, two
drug offenses and a firearm offense. At sentencing, the District Court applied a career offender
enhancement. Nasir now appeals his convictions and challenges the application of that
enhancement. We will affirm Nasir's convictions in part but, in light of the Supreme Court's decision
in Rehaifv. United States, 139 S. Ct. 2191, 204 L. Ed. 2d 594 (2019), we will vacate his conviction
as a felon in possession of a firearm and remand for a new trial on that charge, as well as for
resentencing on the remaining counts of conviction.
I. BACKGROUND
On December 21,2015, the owner of a storage facility in Dover, Delaware reported to the police
suspicious activity at one of the storage units, number C69. The owner asked the police to visit the
storage facility to discuss what he believed to be "drug occurrences" on his property. (App. at 90.)
When the police arrived, he told them that, over the past several months, someone had visited that
unit frequently, as often as five times a day. Each time, the man - whom he identified as Nasir would enter the storage unit and close the door behind him. Shortly thereafter, he would reemerge
and leave the facility. Concerned about illegal activity, the owner had taken a photograph{2020 U.S.
App. LEXIS 3} of the inside of the unit, which he showed the officers. It revealed two large coolers,
two closed buckets, a box of baggies, a large bag, and an aerosol spray can. The owner provided a
copy of a rental agreement signed by Nasir and a photocopy of Nasir's driver's license. The rental
agreement listed Nasir's storage unit as C43, not C69, but the police apparently did not notice that
discrepancy. 1
Following up on the information provided by the facility owner, the police ran a criminal history check
on Nasir and learned that he had a criminal record that included felony drug convictions. They
visited unit C69 with a drug detection dog, and the dog positively alerted to the presence of drugs
there. Based on the accumulated evidence, the detectives applied for a search warrant for that unit.
While awaiting the warrant, several police officers remained at the storage unit, and one surveilled
Nasir's home. The officer at the home saw Nasir place a large black bag in the back of a Mercury
Mariner SUV and drive in the direction of the storage facility. Nasir in fact went to the facility, and,
when he arrived, the officers stopped him as he entered the row of units including numbers C69 and
C43.{2020 U.S. App. LEXIS 4} After handcuffing him and putting him in the back of a patrol car,
they searched his SUV, where they found a black duffle bag and a key to unit C69.
That same night, a search warrant issued and was executed. In unit C69, the police found more than
three kilograms of marijuana, as well as scales and packaging materials. The next day, they applied
for and received a search warrant for Nasir's home and any vehicles on the property. While
executing the warrant, the officers found $5,000 in cash in a grocery bag in the house and several
handguns with ammunition in a Dodge Charger parked on the property.
{982 F.3d 151} Nasir was indicted for violating 21 U.S.C. § 856(a)(1), part of what is commonly
known as the crack house statute (Count One), and was also charged under 21 U.S.C. §§ 841(a)(1)
and (b)(1)(D) for possession of marijuana with intent to.distribute (Count Two), and under 18 U.S.C.
§§ 922(g)(1) and 924(a)(2) as a felon in possession of a firearm (Count Three). He moved to
suppress the evidence obtained from the searches of the storage unit, his house, and his vehicles.
The District Court held hearings on that motion and denied it.

CIRHOT

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

33547183

At trial, and of particular relevance now, Nasir entered a stipulation with the government as to the
charge that he illegally possessed a firearm. Pursuant{2020 U.S. App. LEXIS 5} to Old Chief v.
United States, 519 U.S. 172, 117 S. Ct. 644, 136 L. Ed. 2d 574 (1997),2 he stipulated that, prior to
the date when he allegedly possessed the firearm, he had been "convicted of a felony crime
punishable by imprisonment for a term exceeding one year, in the United States District Court for the
Eastern District of Virginia."3 (Supp. App. at 21.) The jury convicted him on all three counts of the
indictment.
After the trial, Nasir filed a motion to set aside the verdict and a motion for a new trial, both of which
were denied. The District Court sentenced him to 210 months of imprisonment and three years of
supervised release, having determined that he qualified as a career offender under the United States
Sentencing Guidelines (the "guidelines") because of two earlier convictions in Virginia, one from the
year 2000 for attempting to possess{2020 U.S. App. LEXIS 6} cocaine with intent to distribute and
one from 2001 for possession of cocaine and marijuana. This timely appeal followed.
II. DISCUSSION4
Nasir raises five arguments. First, he says that there was insufficient evidence to sustain his
conviction under the crack house statute because the section of the statute under which he was
convicted does not make it unlawful to store drugs. Second, he argues that the officer who searched
the Mercury Mariner did not have probable cause to justify that search, so the evidence found there
should have been suppressed. Third, he contends that a member of his jury was avowedly partial, so
seating her deprived him of a fair trial. Fourth, he asserts that the career offender enhancement
under the guidelines should not have factored into his sentencing because one of his prior felony
convictions does not qualify as a "controlled substance offense," as that term is defined in the
guidelines. Finally, he argues that the government did not prove that he knew he was a felon, as is
now required by Rehait {982 F.3d 152} in a prosecution under 18 U.S.C. § 922(g), 139 S. Ct. at
2194, so his conviction under that statute for being a felon in possession of a firearm cannot stand.
We will affirm the District Court's{2020 U.S. App. LEXIS 7} denial of Nasir's motion for acquittal as
to Counts 1 and 2 and accordingly affirm those convictions. In doing so, we reject Nasir's first three
arguments. However, we agree that he does not qualify for the career offender enhancement and
must be resentenced. We also hold that his conviction for being a felon in possession of a firearm
must be vacated and remanded for a new trial on that count of the indictment.
A. The Crack House Conviction
Nasir first challenges his conviction under the crack house statute, specifically 21 U.S.C. §
856(a)(1), which makes it unlawful to "knowingly ... lease, rent, use, or maintain any place ... for the
purpose of manufacturing, distributing, or using any controlled substance." Despite the breadth of
that language, Nasir argues that his conviction should be reversed because, he says, that subsection
was not meant to cover storage.5 Nasir did not preserve that argument in the District Court, so we
review the denial of his motion for judgment of acquittal for plain error.6 United States v. Olano, 507
U.S. 725, 731, 113 S. Ct. 1770, 123 L. Ed. 2d 508 (1993). We will reverse for plain error only if there
was an actual error that is plain, that affects "the outcome of the district court proceedings," and that
"seriously affect[s] the fairness, integrity or public{2020 U.S. App. LEXIS 8} reputation of judicial
proceedings. Id. at 734-36 (citations and internal quotation marks omitted) (alteration in original).
Nasir's argument rests on the contrast between subsection (a)(1) of the crack house statute, which he
was convicted of violating, and subsection (a)(2), under which he was not charged. That latter
subsection declares it unlawful to "manage or control any place, whether permanently or temporarily,
... and knowingly and intentionally rent, lease, profit from, or make available for use, with or without'

CIRHOT

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

33547183

compensation, the place for the purpose of unlawfully manufacturing, storing, distributing, or using a
controlled substance." 21 U.S.C. § 856(a)(2) (emphasis added).
According to Nasir, because "storing" is listed as a prohibited activity in subsection (a)(2) but is not
mentioned in subsection (a)(1), it was intentionally excluded from (a)(1). By his lights, since he was
storing illegal drugs, he should be safe from conviction under (a)(1). But even if we were inclined to
accept that subsection (a)(1) does not cover storage, that does not help Nasir. No sensible reading
of the statute allows one to distribute drugs just because one is also storing them. Within unit C69,
besides the drugs themselves, there was drug distribution paraphernalia, namely scales and
packaging materials such{2020 U.S. App. LEXIS 9} as food storage bags. In addition to that
evidence, there was the testimony of the facility owner about Nasir's frequent and suspicious {982
F.3d 153} trips to the unit. Subsection (a)(1) expressly prohibits "distributing" a controlled substance
from any rented place, and the jury was presented with more than ample evidence that Nasir was
doing just that. The District Court properly instructed the jury that it could find Nasir guilty of violating
section 856(a)(1) if he used a "place for the purpose of manufacturing, distributing, or using any
- controlled substance." (App. at 615 (emphasis added).) There was thus an obvious and legitimate
basis for his conviction under the crack house statute, and the District Court's denial of Nasir's
motion for a judgment of acquittal was not error at all, let alone plain error.
B. The Motion to Suppress Evidence from the SUV
Nasil also appeals the denial of his motion to suppress the evidence retrieved in the search of his
Mercury Mariner SUV. He repeats the argument he made in the District Court, saying that the officer
who searched the SUV lacked probable cause. We review de novo whether there was probable
cause to justify police action. United States v. Vasquez-Algarin, 821 F.3d 467, 471 (3d Cir. 2016).
The legal theories offered in opposition to and support of the SUV{2020 U.S. App. LEXIS 10} search
have morphed over time. They began with Nasir objecting to the search as the proverbial fruit of the
poisonous tree. He said the "[pjolice did not have cause to arrest [him] at the time he arrived at the
storage facility parking lot and accordingly all statements made by him and any evidence found
subsequent to his arrest should be suppressed." (App. at 47.) In responding to that motion, the
government said that the search of the SUV "was a lawful search incident to a valid arrest pursuant
to Arizona v. Gant, 556 U.S. 332, 129 S. Ct. 1710, 173 L. Ed. 2d 485 (2009)." (App. at 60 n.21.) The
government also stated that, at the suppression hearing, it "would present evidence that the search
... was a valid inventory search[,]" although apparently it did not do so. (App. at 60 n.21.) In his
post-hearing rebuttal briefing before the District Court, Nasir argued that the search of the SUV was
unlawful as a search incident to arrest and as an inventory search. The District Court ultimately
classified the search as being incident to Nasir's arrest but noted that, even if the search had
occurred prior to the arrest, "the search of the vehicle appears to have been within the scope of the
automobile exception" to the warrant requirement of the Fourth Amendment. (App. at 21 n.4
(citations omitted).)
On appeal, Nasir simply asserts{2020 U.S. App. LEXIS 11} that there was no probable cause to
search the SUV, without specifying the legal framework for analysis.7 We conclude that the District
Court correctly approached the issue as being a search incident to arrest. Even when, like Nasir. an
arrestee is detained and not within reach of his vehicle, the police may conduct "a search incident to
a lawful arrest when it is reasonable to believe evidence relevant to the crime of arrest might be
found in the vehicle." Gant, 556 U.S. at 343 (citation and internal quotation marks omitted). Whether
viewed as a question of probable cause to arrest Nasir or probable cause to search the SUV under
the automobile exception, however, the pertinent facts and the outcome are the same.

CIRHOT

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

33547183

{982 F.3d 154} In challenging the search of the SUV, Nasir says that the evidence uncovered in that
vehicle - a black duffle bag and the key to unit C69 - should have been suppressed because the
investigating officers did not corroborate the tip from the storage facility owner. Nasir characterizes
the owner as an unknown and unreliable informant, and he lays particular emphasis on the incorrect
unit number on the rental agreement the owner provided to the police. Nasir also argues that the
District Court impermissibly{2020 U.S. App. LEXIS 12} attributed information known only to officers
not present at the search to the officer who actually conducted the search. His arguments are
unpersuasive.
When the police receive information from an informant for the first time, they have a duty to
independently corroborate at least some of the information the informant provides. See Illinois v.
Gates, 462 U.S. 213, 242, 103 S. Ct. 2317, 76 L. Ed. 2d 527 (1983) ("[A]n officer may rely upon
information received through an informant, rather than upon his direct observations, so long as the
informant's statement is reasonably corroborated by other matters within the officer's knowledge."
(citation and internal quotation marks omitted)). They discharged that duty in this case. The arresting
officers personally knew the following at the time of the arrest and related search of the vehicle:
according to a background check, Nasir had a history of drug dealing; the owner of the storage
facility had reported Nasir engaged in suspicious activity at unit C69, including making numerous
trips to the storage unit, sometimes several in a day; the owner had taken a photograph that showed
items in the unit consistent with drug distribution; an officer had seen Nasir put a bag in the back of
his car and drive toward the storage{2020 U.S. App. LEXIS 13} facility; and a narcotics dog had
positively alerted to drugs at unit C69.
Given the totality of those circumstances known to the officers who arrested Nasir. there was
certainly probable cause, reasonably corroborated, for Nasir's arrest, and it was reasonable to
believe that evidence of his drug dealing would be found in the SUV.8 We will therefore affirm the
District Court's denial of Nasir's motion to suppress.*’
C. The Ruling on Alleged Juror Bias
Ngsir next claims that he was deprived of a fair and impartial jury because one of the jurors at his
trial. Juror 27, did not unequivocally affirm that she would be impartial. Our review of a ruling on a
motion to strike a juror for cause is for manifest error - a most deferential standard. Skilling v. United
States, 561 U.S. 358, 396, 130 S. Ct. 2896, 177 L. Ed. 2d 619 (2010). The Supreme Court has
emphasized that jury selection is "particularly within the province of the trial judge" and cautioned
against "second-guessing the trial judge's estimation of a juror's impartiality!;.]" Id. at 386 (citation and
internal quotation marks omitted).
During voir dire, one of the questions the District Court asked to determine juror partiality was,
"Would you give more {982 F.3d 155} or less weight to the testimony of a law enforcement agent or
police officer than{2020 U.S. App. LEXIS 14} you would give to that of a civilian witness, simply
because he or she is employed as a law enforcement agent or police officer?" (App. at 237-38.)
Because Juror 27 answered "yes" to that question, the following colloquy ensued:
A JUROR: [...] But the other thing that I kind of answered ".yes" to was police officer and a person
on the street. I would like to think I would be partial (sic), but I don't know.
THE COURT: You would like to think you would be impartial and fair to both sides?
A JUROR: Yes, impartial that is what I would like to say.
THE COURT: What is your concern you wouldn't be?

CIRHOT

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

33547183

A JUROR. Well, my daughter dates a state police officer. And I really have a lot of respect for
them, you know, and I feel that for the most part they all do a good job, and they try to be fair I
think I might tend to believe what they say. I don't know.
THE COURT. Do you think if I instruct you that you have to be fair and impartial and assess
everybody's credibility as best as you can that you would be able to do that?
A JUROR: I would think I would. I would hope I would.(App. at 305.) Then, outside the juror's
presence the Court and counsel had this further conversation:
[NASIR'S ATTORNEY]: Your Honor, I move to strike on{2020 U.S. App. LEXIS 15} the basis
that she -- her daughter is dating a state police officer and she would tend to believe the officer
and police testimony.
THE COURT: What is the government's position?
[GOVERNMENT'S ATTORNEY]: Your Honor, I don't have a real strong one. That she would
answer any questions that she was instructed [sic]. She could stay impartial. She confronted all
those issues. I certainly understand why [Defense counsel] is objecting.
THE COURT: Any response?
[NASIR'S ATTORNEY]: No response, Your Honor.
THE COURT: I'm going to deny the motion. I felt sufficient confidence that she would work as
hard as anyone could to be fair and impartial, and I think she would follow the instructions. So
I m denying the motion to strike.(App. at 306-07). Nasir argues that the statements "I would think
I would" and "I would hope I would" are not sufficiently strong affirmations of impartiality.
Because the juror admitted to her concern about partiality, the District Court quite rightly asked
follow-up questions to determine whether she was actually biased. Cf. United States v. Mitchell, 690
F.3d 137, 142, 57 V.l. 856 (3d Cir. 2012) (holding that actual bias is "the existence of a state of mind
that leads to an inference that the person will not act with entire impartiality!,]" unlike implied
bias,{2020 U.S. App. LEXIS 16} which is "presumed as [a] matter of law" (citations and internal
quotation marks omitted)). Here, Juror 27's acknowledgement that she "ha[s] a lot of respect for"
police officers and "might tend to believe what they say" prompted the District Court to emphasize
her obligation to be fair and impartial and to weigh the evidence equally. (App. at 305.) She
responded with assurances that she would follow the Court's instructions. Her declaration that she
"would think" and "would hope" (App. at 305) that she could be impartial - combined, it seems, with
the way in which she said it - allowed the District Court, observing her behavior and mannerisms first
hand, to have "sufficient {982 F.3d 156} confidence that she would work as hard as anyone could to
be fair and impartial." (App. at 306-07.) That decision, on this record, is not manifestly erroneous.

CIRHOT

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

33547183

I

Case l:16-cr-00015-LPS Document 148 Filed 08/27/18 Page 1 of 7 PagelD #: 1314
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 1

United States District Court
District of Delaware

)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
MALIK NASIR

THE DEFENDANT:
□ pleaded guilty to count(s)

JUDGMENT IN A CRIMINAL CASE
Case Number: 16-CR-15-LPS
USM Number: 33547-183

KENNETH C. EDELIN, ESQUIRE
Defendant's Attorney

_____

□ pleaded nolo contendere to count(s)
which was accepted by the court.
El was found guilty on count(s)
after a plea of not guilty.

1,2, AND 3 OF THE INDICTMENT

The defendant is adjudicated guilty of these offenses:
Title & Section
21 U.S.C. § 856(a)(1) and (b)

Offense Ended

Nature of Offense
1 MAINTAINING A PREMISES FOR MANUFACTURING, DISTRIBUTING OR USING MARIJUANA

12/21/201 5

jQZ
2

21 U.S.C. § 841(a)(1) and (b)(1)(D)

POSSESS WITH INTENT TO DISTRIBUTE MARIJUANA

12/21/2015

j^18 U.S.C. §§ 922(g)(1) and 924(a)(2)

POSSESSION OF A FIREARM BY A PROHIBITED PERSON

12/21/2015

7

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not gui Ity on count(s)
□ Count(s)

□ is

Count

!

j

jEZH

of this judgment. The sentence is imposed pursuant to

____
□ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
■ 8/24/2018
Dale qf Imposition of Judgment

J)

Sianatur&of Judge

HONORABLE LEONARD P. STARK, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

Date

1

I

Case l:16-cr-00015-LPS Document 148 Filed 08/27/18 Page 2 of 7 PagelD #: 1315
AO 245B (Rev. 02/18) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

2

of

7

DEFENDANT: MALIK NASIR
CASE NUMBER: 16-CR-15-LPS

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

210 MONTHS ON COUNT 1,60 MONTHS ON COUNT 2, AND 120 MONTHS ON COUNT 3, ALL OF
WHICH SHALL RUN CONCURRENTLY.
□ The court makes the following recommendations to the Bureau of Prisons:

0 The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:
□ a.m.

□ at

□ p.m.

on

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 p.m. on

________________ _________ .

□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

to

Defendant delivered on
at

, with a certified copy of this judgment

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

I

I

Case l:16-cr-00015-LPS Document 148 Filed 08/27/18 Page 3 of 7 PagelD #: 1316
AO 245B (Rev. 02/18) Judgment in a Criminal Case
Sheet 3 — Supervised Release

I

Judgment—Page

3

of

7

DEFENDANT: MALIK NASIR
CASE NUMBER: 16-CR-15-LPS
SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

3 YEARS ON EACH OF COUNTS 1,2, AND 3, ALL SUCH TERMS SHALL RUN CONCURRENTLY.

MANDATORY CONDITIONS
1.
2.
3.

4.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
□ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, (check ifapplicable)

5.

[?f You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)

6.

□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check ifapplicable)
Q You must participate in an approved program for domestic violence, (check ifapplicable)

7.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

fc

Case l:16-cr-00015-LPS Document 148 Filed 08/27/18 Page 4 of 7 PagelD #: 1317
(
AO 24SB (Rev. 02/18) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

4

of

7

DEFENDANT: MALIK NASIR
CASE NUMBER: 16-CR-15-LPS

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

/
I

AO245B(Re9.^ft)1ju]afefortiPa0<?riL5nakgs§ Document 148 Filed 08/27/18 (Page 5 of 7 PagelD #: 1318
Sheet 3D — Supervised Release

■

/

DEFENDANT: MALIK NASIR
CASE NUMBER: 16-CR-15-LPS

Judgment—Page

5

of

7

<

1

SPECIAL CONDITIONS OF SUPERVISION
1. THE DEFENDANT SHALL PARTICIPATE IN A SUBSTANCE ABUSE TREATMENT, WHICH MAY
INCLUDE DRUG TESTING AND TREATMENT AND/OR COGNITIVE BEHAVIORAL TREATMENT
(CBT), AS DIRECTED BY THE PROBATION OFFICER.
2. THE DEFENDANT SHALL PROVIDE THE PROBATION OFFICER WITH ACCESS TO ANY
REQUESTED FINANCIAL INFORMATION.
3. THE DEFENDANT SHALL PARTICIPATE IN THE U.S. PROBATION OFFICE'S WORKFORCE
DEVELOPMENT PROGRAM AS DIRECTED BY THE PROBATION OFFICER.

Case l:16-cr-00015-LPS Document 148 Filed 08/27/18 Page 6 of 7 PagelD #: 1319

AO 2458 (Rev. 02/18) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

Judgment — Page

6

of

7

DEFENDANT: MALIK NASIR
CASE NUMBER: 16-CR-15-LPS

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

JVTA Assessment*
S N/A

Assessment
S 300.00

Restitution
S N/A

Fine
S WAIVED

. An Amended Judgment in a Criminal Case (AO 24SC) will be entered

□ The determination of restitution is deferred until
after such determination.

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 36640), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

TOTALS

Total Loss**

0.00

s

Restitution Ordered

s

Priority or Percentage

0.00

□

Restitution amount ordered pursuant to plea agreement S _____________________

□

The defendant must pay interest on restitution and a fine o f more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ the interest requirement is waived for the
□ the interest requirement for the

□

fine

□ fine

□ restitution.

□ restitution is modified as follows:

* Justice for Victims ofTrafficking Act of 2015, Pub. L. No. 114-22.
_
.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13,1994, but before April 23, 1996.

A0 245B

(i^^%US3G^8!MSrfc£S Document148 Filed 08/27/18 Page 7 of 7 PagelD #: 1320
Sheet 6 — Schedule of Payments
Judgment — Page

7

of

7

DEFENDANT: MALIK NASI R
CASE NUMBER: 16-CR-15-LPS

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

(2 Lump sum payment of $
□
□

300.00

not later than
in accordance with □ C,

due immediately, balance due

□ D,

,or
□ E, or

□ F below; or
□ C,

□ D, or

□ F below); or

B

□ Payment to begin immediately (may be combined with

C

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g.,
30
or
60
days)
after
the
date
of
this
judgment;
or
(e.g., months or years), to commence

D

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after release from imprisonment to a
(e.g., months or years), to commence
term of supervision; or

E

□ Payment during the term of supervised release will commence within __________ (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, ifthis judgment imposes imprisonment, p^nient ofcriminahnonetary penalties is due during
Financial Responsibility Program, are made to dwclerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numb'ers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.
|

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

^

The defendant shall forfeit the defendant’s interest in the following property to the United States:

THE DEFENDANT IS SUBJECT TO FORFEITURE AS DETAILED IN THE INDICTMENT.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

!.

I
I
I

I

i

t
i

i

-A-

l

Tcrfh

I

DtsrtNct; .CbufVs. <ienia(

»

&-£■ 5u.pptveD5(V\ fV&t<c^A

/»

t

t

.^■o^Tvqa ^OiT- xodlWv^yvrV.-ic?£--.(X(LDiu\Ht}vl
*•>

s.

4

A

t

4

|T^iV^-3Cv'\pV5

\ rAoVvQv^

,4-tO . 5^rv L'<-^- V)\ (r~$ . . \0 <0.4

I
+
4t

-4

l
f
i

I

4

4*
i

1
♦

✓

3

V

w*--

Case l:16-cr-00015-LPS Document 56 Filed 03/15/17 . Page 1 of 1 PagelD #: 268

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
UNITED STATES OF AMERICA,
Plaintiff,
v.

Grim. No. 16-15-LPS

MALIK NASIR,
Defendant.

t

ORDER
At Wilmington this 15th day of March, 2017, consistent with the Memorandum Opinion
issued this date,
IT IS HEREBY ORDERED that defendant Malik Nasir’s motion to suppress evidence
(D.I. 28) is DENIED.
IT IS FURTHER ORDERED that the parties shall submit a joint status report no later
than March 22nd, 2017.

HON. LEONARD P. STARK
UNITED STATES DISTRICT JUDGE

;

I
/

A

V
Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 1 of 14 PagelD #: 254

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
UNITED STATES OF AMERICA,
Plaintiff.

5

Crim. No. 16-15-LPS

v.

MALIK NASIR,
Defendant.
David C. Weiss, Acting United States Attorney, and Daniel E. Logan, Jr., Assistant United States
Attorney, U.S. DEPARTMENT OF JUSTICE, Wilmington, DE
Attorneys for Plaintiff

James F. Brose, BROSE LAW FIRM, Media, PA
Attorney for Defendant

MEMORANDUM OPINION

March 15, 2017
Wilmington, Delaware

A

Case l:16-cr-QQQI5-LPS Document 55 Filed 03/15/17 Page 2 of 14 Page ID #: 255

J r

Wge:.
On February 23, 2016, a federal grand jury indicted defendant Malik Nasir (“Defendant”
or

^ee counts’ relating to drug distribution and unlawfuLpossession of a firearm.
‘V

'•

an evidentiary hearing on September 7,2016. (See D.I. 38 (“Tr.”)) Nasir then filed a motion for
a hearing under Franks v. Delaware, 438 U.S. 154 (1978). (D.I. 35) The Court denied Nasir’s
Franks motion (D.I. 46) and allowed the government to su]

a

second hearing, held on December 21, 2016 (see D.I. 52 (“Dec. Tr.”)). The parties then briefed
Nasir’s suppression motion (see D.I. 51, D.I. 53, D.I. 54), which the Court now resolves.
I.

BACKGROUND
On March 10, 2015, defendant Malik Nasir leased a 5x5 foot unit at Liberto Mini Storage

in Dover, Delaware. (See D.I. 35 at 7 of 7 (“Rental Agreement”)) The Rental Agreement gave
Nasir use of “Space No. C43,” subject to certain terms and conditions. (Id.)
Around nine months later, on December 21,2015, the Liberto facility’s owner made a
/

phone call to Delaware State Police (DSP) Troop Number 3. During over-the-phone and inperson conversations with DSP Sergeant Lance Skinner, the facility owner complained of
possibly suspicious and potentially illegal activity being carried out of unit C69, prompting DSP
to investigate. (See, e.g., Tr. at 5, 7) The tenant leasing unit C69 was apparently accessing his
space up to five times daily, in different vehicles, and would enter his small 5x5 unit, close the
door behind him for a short time, reemerge, and leave the facility. (Id. at 8, 66) The facility
owner had taken a photo showing that inside the unit were two large coolers, two closed buckets,
a box of baggies, something that looked like a duffel bag, and a can of something. (Id. at 10)

1

't>
Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 3 of 14 PagelD #: 256

The facility owner told Skinner that unit C69 belonged to Malik Nasir, and provided
Skinner with the Rental Agreement and a photocopy of Nasir’s driver’s license. (Id. at 11) DSP
officers did not notice the discrepancy between the unit number on the Rental Agreement, C43,
and the storage owner’s statements about unit C69, and so did not press for an explanation. (See
Dec. Tr. at 8-9)
DSP then ran a Criminal history check and learned that Nasir had felony drug convictions
on his record. (Tr. at 13) Later that evening, DSP officers returned to the facility with Detective
Donaldson and a trained and certified narcotics detection dog named Ripper. (Id. at 15; see also
D-i. 30-1 ( Warrant Affidavit”) at 5-6) Ripper “positively alerted to the odor of narcotics
emanating from” unit C69. (Warrant AfF. at 6; see also Tr. at 16)
Next, DSP detectives applied for a search warrant for unit C69 from the Justice of the
Peace Court. (See generally Warrant AfF.) In the meantime, while other DSP officers remained
at the storage facility “holding” the unit, a DSP detective monitoring Nasir’s home saw Nasir
place a large black bag in the cargo area of a Mercury Mariner SUV. (Tr. at 26) Nasir then got
into the Mariner SUV, which was registered in Nasir’s name, and drove it directly to the storage
facility. (Id.) As Nasir drove into the lane in which unit C69 was located, DSP officers stopped
his vehicle, handcuffed him, and put him in the back of a patrol car. (See id. at 29-30) Skinner
testified this was done “as soon as [the driver] committed to the area of where it would lead [the
driver] to C69 ’ (id. at 28), and that it was done for the purpose of preventing Nasir from
compromisfing] execution of the search warrant (id. at 30), the application for which was then
pending before a judge. A search of the Mariner recovered a key to unit C69 and a “duffle bag”
with “marijuana residue.” (Id. at 32)
2

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 4 of 14 PagelD #: 257

When the search warrant was issued and executed that same night, officers found that
unit C69 contained in excess of 3 kilograms of marijuana, as well as scales and packaging
materials. After a separate search warrant was issued, officers searched a Dodge Charger
registered in Nasir’s name and parked outside his home; they found that this vehicle contained
$5,000 in a grocery bag and several handguns with ammunition. (Id. at 37,39)
With his motion to suppress, Nasir urges the Court to “exclude all evidence gathered in
this case.” (D.I. 51 at 9)
H.

LEGAL STANDARDS
The United States Constitution guarantees the “right of the people to be secure in then-

persons, houses, papers, and effects, against unreasonable searches and seizures.” U.S. Const,
amend. IV. This Fourth Amendment right “shall not be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized.” Id. Accordingly, probable cause is the
“threshold requirement for issuance of a warrant.” United States v. Ritter, 416 F.3d 256,262 (3d
Cir. 2005). A search and seizure made pursuant to a warrant based on probable cause is
generally reasonable. See Katz v. United States, 389 U.S. 347, 356-57 (1967).
In contrast, “[sjearches conducted absent a warrant are per se unreasonable under the
Fourth Amendment, subject to certain exceptions.” Free Speech Coal., Inc. v. Attorney Gen.
United States, 825 F.3d 149, 168-69 (3d Cir. 2016) (internal quotation marks omitted). “The few
situations in which a search may be conducted in the absence of a warrant have been carefully
delineated and the burden is on those seeking the exemption to show the need for it.” Id.
The exclusionary rule provides that evidence collected in violation of a defendant’s
3

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 5 of 14 PagelD #: 258

constitutional rights may be inadmissible in a criminal prosecution. See Weeks v. United States,
232 U.S. 383, 388 (1914). Thus, “the exclusionary rule is designed to deter police misconduct
rather than to punish the errors of judges and magistrates.” United States v. Leon, 468 U.S. 897,
916 (1984). “But when the police act with an objectively reasonable good-faith belief that their
conduct is lawful,... the deterrence rationale loses much of its force.” Davis v. United States,
564 U.S. 229,238 (2011) (internal citations and quotation marks omitted).
in.

DISCUSSION
Nasir identifies five grounds for suppressing the government’s evidence against him

{See D.I. 51 at 5-6) The Court addresses each in turn.
A.

Canine “Sniff Test”

Nasir contends that DSP’s use of a drug-sniffing dog outside the storage unit violated his
reasonable “expectation of privacy in the locker unit as evidenced by the contents being locked
behind closed doors.” (D.I. 51 at 7) Nasir argues that the search was improper regardless of
whether the probable cause or reasonable suspicion standard applies. {Id. at 8-9) The
government responds that the dog sniff was not a Fourth Amendment “search” because it
involved neither “trespass onto a constitutionally-protected area” nor “inffinge[ment] of [Nasir’s]
reasonable expectation of privacy.” (D.I. 53 at 6-7)
Nasir relies on Florida v. Jardines, 133 S. Ct. 1409 (2013), in which the Supreme Court
held that “[t]he government’s use of trained police dogs to investigate the home and its
immediate surroundings is a ‘search’ within the meaning of the Fourth Amendment.” Id. at
1417-18. The Court’s conclusions were based on the facts there, including that “[t]he officers
were gathering information in an area belonging to Jardines and immediately surrounding his
4

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 6 of 14 PagelD #: 259

house ... by physically entering and occupying the area to engage in conduct not explicitly or
implicitly permitted by the homeowner.” Id. at 1414. Nasir, quoting the Fourth Amendment’s
safeguard of “persons, houses, papers, and effects,” argues that “the content of [his] personal
storage locker kept under lock and key” is similarly protected. (D.I. 51 at 7)
Nasir’s Jardines argument is unavailing. The “curtilage of [a] house ... enjoys
protection as part of the home itself.” Id. By contrast, Nasir had no expectation of privacy in the
area immediately outside of his storage unit. The Liberto facility is located along a state highway
and does not have a gate or other barrier at its entrance. (See Tr. at 5-6) It is in a commercial
area, near a pizza restaurant and other commercial establishments, and is not surrounded by a
fence or gate. (Id. at 5-6) The Court agrees with the government that Nasir “did not have a
reasonable expectation of privacy in the common area of the outside, commercial storage unit,”
(D.I. 53 at 8; see also United States v. Parrilla, 2014 WL 2111680, at *4 (S.D.N.Y. May 13,
2014) (finding canine sniff of defendant’s commercial garage did not implicate reasonable
expectations of privacy))
In addition, the storage facility’s owner invited DSP onto the property. (See Tr. at 5, 59)
Far from intruding without invitation onto the curtilage of Nasir’s home, Ripper detected the
scent of marijuana from a place where DSP had “a legal right to be.” United States v. Taylor,
979 F. Supp. 2d 865, 881 (S.D. Ind. 2013), aff’d, 776 F.3d 513 (7th Cir. 2015).
Nor can Nasir rely on his expectation of privacy with respect to the locker’s contents.
The Supreme Court has held that “any interest in possessing contraband cannot be deemed
‘legitimate,’ and thus, governmental conduct that only reveals the possession of contraband
compromises no legitimate privacy interest.” Illinois v. Caballes, 543 U.S. 405, 408 (2005)
5

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 7 of 14 PagelD #: 260

(internal quotation marks omitted). “Accordingly, the use of a well-trained narcotics-detection
dog • • ■ generally does not implicate legitimate privacy interests.” Id. at 409; see also United
States v. Lopez, 2011 WL 2636890, at *6 n.7 (D. Del. July 6,2011). Nasir has not demonstrated
he had a reasonable expectation of keeping the contents of his rented storage unit private from a
canine search. See generally United States v. Place, 462 U.S. 696, 707 (1983) (“[T]he canine
sniff is sui generis. We are aware of no other investigative procedure that is so limited both in
the manner in which the information is obtained and in the content of the information revealed by
the procedure.”). This conclusion is bolstered by the fact that in the Rental Agreement, Nasir
gave the storage facility’s owner the right to “enter to inspect” his rented unit at “any reasonable
time.” (Tr. at 63; see also Rental Agreement at 8)
In sum; the Court agrees with the government that the dog sniff was not a “search” under
the Fourth Amendment, and so Nasir’s argument for exclusion of “[a]ll the evidence gathered in
this case, which he says “flows from the initial unlawful search by the canine” (D.I. 51 at 9),
lacks merit.
B.

Storage Unit Number Disparity

Nasir s brief essentially renews his Franks motion, which was based on the inconsistency
between the locker number identified in the Rental Agreement, C43, and that specified in the
Warrant Affidavit and ultimately searched, C69. Nasir argues that “[t]his discrepancy would
have required additional investigation, explanation, and proof in the affidavit to show a
connection between Mr. Nasir and C-69.” (D.I. 51 at 11) Nasir contends that DSP’s failure to
notice and account for the discrepancy “was reckless and resulted in misinformation” in the
Warrant Affidavit. (Id.)
6

Case 1:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 8 of 14 PagelD #: 261

In response to Nasir’s Franks motion, the government produced a “Transfer Receipt,”
dated March 27, 2015, which shows that Nasir relocated from unit C43 to unit C69 about two
weeks after he signed the Rental Agreement. {See D.I. 39 at 4 of 4) Skinner’s testimony at the
supplemental evidentiary hearing detailed how that Transfer Receipt came into the government’s
possession. {See generally Dec. Tr. at 8-11) The Court previously denied Nasir’s motion for a
Franks hearing, based on its finding that Nasir had not “made the required ‘substantial
preliminary showing’ of any falsehood - intentional or otherwise - in the affidavit supporting the
warrant application.” (D.I. 46 at 4) The supplemented evidentiary record similarly fails to
contain proof by a preponderance of the evidence of any such falsehood, which is what Nasir
would have had to show at a Franks hearing. See Franks, 438 U.S. at 156.
The record does not support Nasir’s contention that the discrepancy in unit numbers led
to “misinformation” in the affidavit. As the Court observed in denying Nasir’s Franks motion,
the Warrant Affidavit does not appear to have relied on the Rental Agreement in specifying the
unit to be searched. Instead, the affidavit states that “the [facility] owner advised that he had a
tenant who was renting storage unit C69” and only thereafter does the affidavit go on to mention
the Rental Agreement (in the next sentence). (Warrant Aff. at 4) The affidavit later mentions the
Rental Agreement’s content for the purpose of providing the basis for the facility owner’s right to
inspect (and photograph the contents of) leased units. {See Warrant Aff. at 5; see also Tr. at 6263 (“He was basically showing us [the Rental Agreement] to show us that in the contract, when
people agree to rent from his facility, he has a right to go in and search them.”)) In other words,
the Warrant Affidavit is better characterized as establishing that “Nasir rents unit C69,” not
“according to the Rental Agreement, Nasir rents unit C69.” Only the latter statement would have
7

{~S

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 9 of 14 PagelD #: 262

been untrue. The former statement was supported by evidence on which DSP officers relied in
good faith.
Even if the Court found the Warrant Affidavit to contain a misrepresentation, relief would
be warranted under Franks only upon a showing of either “knowing[] and intentionalQ”
falsehood or “reckless disregard for the truth.” Franks, 438 U.S. at 155. Nasir charges DSP
detectives with the latter. (D.I. 51 at 11) But the “reckless disregard” standard is only satisfied if
“viewing all the evidence, the affiant must have entertained serious doubts as to the truth of his
statements or had obvious reasons to doubt the accuracy of the information he reported.” United
States v. Brown, 631 F.3d 638, 645 (3d Cir. 2011) (internal quotation marks omitted). “[I]n
general, the failure to investigate fully is not evidence of an affiant’s reckless disregard for the
truth. ’ Id. at 648 (internal quotation marks omitted). As Nasir himself argues, the evidentiary
record suggests that DSP failed to notice and follow up on the discrepancy between the storage
unit owner’s claim and the unit specified in the Rental Agreement. {See D.I. 51 at 10) This
oversight was not “reckless” under the circumstances. The focus, understandably, was on the
location of the potential illegal drugs - based on complaints from other storage unit renters and
the facility’s owner — and not as much on when and how Nasir came to occupy that particular
unit1
In sum, the Court agrees with the government that the unit number discrepancy is not a

Thus, the Court disagrees with Nasir’s argument that “[e]ven if the storage facility owner
told the police that the lease was inaccurate and that Mr. Nasir did in fact rent C-69, the police
would have been left with a lease agreement saying one thing and the owner saying another,
which would hardly support probable cause.” (D.I. 51 at 11) Probable cause does not require a
certainty, nor even that all evidence in law enforcement’s possession uniformly point to guilt.
See generally Illinois v. Gates, 462 U.S. 213,238 (stating that probable cause requires “a fair
probability that contraband or evidence of a crime will be found in a particular place”).
8

A

I-'

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 10 of 14 PagelD #: 263

grounds for suppression of evidence in this case.2
C.

Warrantless Arrest & Vehicle Search

Nasir contends that DSP officers lacked probable cause to arrest him without a warrant
upon his arrival at the storage facility. He; further contends that the search of his Mercury
Mariner SUV was improper. The government responds that the facts contained in the Warrant
Affidavit and a “series of suspicious behavior” made Nasir’s arrest proper, and that DSP
reasonably believed that the Mariner would contain evidence of illegal activity. (Di. $3 at 14)
Generally, when a defendant challenges a warrantless search and seizure, the burden is on
the government to demonstrate by a preponderance of the evidence that the acts were
constitutional. See United States v. Williams, 400 F. Supp. 2d 673, 677 (D. Del. 2005). Nasir
cites the Third Circuit’s opinion in United States v. Massac, 867 F.2d 174 (1989), for the
proposition that a “canine alert can support probable cause to arrest [only] if other factors are
present.” (D.I. 51 at 14) Nasir argues that “there were no other factors” besides the dog sniff,
and while the sniff test “might establish probable cause to search the locker,” the “only proof’
connecting Nasir to that locker was the storage facility owner’s assertion, which was contradicted
by the Rental Agreement. (Id.)
The Court disagrees. By the time DSP officers stopped Nasir in his Mercury SUV and
detained him, another officer had observed him leave his home, place a large black object in the
cargo area of his vehicle, and drive directly to the storage facility. (See Tr. at 26) DSP officers
were aware of Nasir’s criminal record, and stopped his vehicle only once he had turned his

2The Court need not reach the government’s alternative argument based on the “good
faith exception” to the exclusionary rule. (See D.I. 53 at 12)
9

■

i

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 11 of 14 PagelD #: 264

vehicle into the lane containing until C69, at which the canine had already alerted to the likely
i

presence of illegal drugs. Even with the discrepancy in unit numbers between the facility
owner’s statements and the Rental Agreement, probable cause existed at that point to arrest
4

Nasir, as the officers had a reasonable belief Nasir had committed (and may again be in the
process of committing) a drug-related crime. The totality of the circumstances known to DSP
officers at that point was “sufficient to warrant a prudent man in believing that [Nasir] had
committed or was committing an offense.” United States v. Glosser, 750 F.2d 1197,1205 (3d
Cir. 1984) (internal quotation marks omitted); see also United States v. Meyers, 308 F.3d 251,
255 (3d Cir. 2002) (“Probable cause exists whenever reasonably trustworthy information or
circumstances within a police officer’s knowledge are sufficient to warrant a person of
reasonable caution to conclude that an offense has been committed by the person being
arrested.”).3
Probable cause also existed to search Nasir’s Mariner SUV. Under Arizona v. Gant, 556
U.S. 332 (2009), police may search a vehicle incident to arrest “when it is reasonable to believe
that evidence of the offense of arrest might be found in the vehicle.” Id. at 335. Here, by the
time DSP officers searched the Mariner, they knew at least the following: Nasir had been
observed arriving at the storage unit several times a day, accessing the unit for nnlv a fpw

3Nasir points to inconsistencies in the record regarding whether he was arrested based on
probable cause by the time he turned his vehicle down the lane toward unit C69, or instead if the
basis for his detention was to prevent him from interfering with the investigation and search of
the unit’s contents. (See D.I. 54 at 1-2 (describing sequence of events as “murky”)also Tr.
.§LS2^54. (Skinner testifying Nasir was briefly detained to avoid interffirence-with-search before
_bemg_auestgd, which did not occur until after marijuana was found in nntiljC69)). Because the
Court finds there was sufficient evidence to support probable cause, Nasir’s arrest or detention
was lawful.in either event.
10

Nf

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 12 of 14 PagelD #: 265

“grinutes, and thenieaving; Nasir had been observed placing a large object in the cargo area of the
Mariner and then driving directly from his home to the storage facility; Nasir had a felony
conviction for a drug-related offense; a canine had alerted to the odor of narcotics in the storage
until associated with Nasir; andJNasir had been observed driving the same Mariner earlier that
V.

da£_JSee Tr. at 8-9,12-13, 21, 26-28; D.I. 30-2 at 6 of 10 f 7) Based on all this evidence, it was
reasonable for DSP officers to believe that evidence of illegal narcotics activity may be found in
the Mariner. Nasir is simply incorrect when he contends that the “[t]he only fact the government
points to [to] support its case is that [Nasir] placed a large, black object in the trunk of his car
before driving to the storage facility.” (D.I. 54 at 2-3; see also generally United States v. Burton,
288 F.3d 91,100 (3d Cir. 2002) (“Because the Task Force observed Burton leave what they
thought to be a drug deal and place the results of that transaction in his trunk, probable cause
existed to conclude that the Maxima itself was involved in an illegality, regardless of Burton’s
seizure.”))4

4Again, Nasir points to arguable inconsistencies in the record, specifically whether the
search of the Mariner occurred “incident to his arrest,” or if it instead occurred prior to his arrest,
when he was being held only for the purpose of preventing his interference with the search of
unit C69. .Nasir only raises thisjarticular point in his renlv brief. (Compare D.I. 51 at 14
(seeking to suppress items recovered from Mariner because Nasir’s “arrest was unlawful”) with
D.I. 54 (focusing on Gant, vagueness of record as to timing of search of Mariner, and questioning
whether search of Mariner was incident to arrest) Litigants “are not permitted to reserve material
.for a reply brief that could_and should have been included in their opening brief.” Fed. Election
Comm ’n v. O’Donnell, 2016 WL 5219452, at *8 (D. Del. Sept. 21, 2016) (citing D. Del. L. Civ.
R. 7.1.3(c)(2)); see also United States v. Heilman, 377 F. App’x 157, 198 (3d Cir. 2010) (“A
party’s argument is waived if it is raised for the first time in a reply brief.”). In any case, even
assuming the Mariner was searched before DSP officers intended to place Nasir under arrest, the
search of the vehicle appears to have been within the scope of the automobile exception. See
United States v. Ross, 456 U.S. 798 (1982); United States v. Andrew, 417 F. App’x 158,163 (3d
Cir. 2011); United States v. Lindsey, 2009 WL 1616121, at *2 (D. Del. June 9, 2009) (“The
Supreme Court s decision in Gant has no effect on the automobile exception, which allows
police to search a vehicle where probable cause exists to believe that the vehicle contains
11

* ■- H

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 13 of 14 PagelD #: 266

The Court is not persuaded that DSP’s seizure of Nasir and search of the Mariner were
“unreasonable” under the Fourth Amendment.
D.

Nasir’s Post-Arrest Statements

Citing Miranda v. Arizona, 384 U.S. 436 (1966), Nasir argues for the suppression of any
statements he made while in DSP’s custody and before being advised of his rights. The
government, citing Harris v. New York, 401 U.S. 222 (1971), responds that it “will not seek
admission of these pre-Miranda statements in its case-in-chief,” but will seek to use the
statements should Nasir testify at trial “in an inconsistent manner.” (D.I. 53 at 16) Nasir’s
motion, therefore, is moot. The Court will rule on use of the statements for impeachment
purposes should the government seek permission to introduce the statements at trial.
E.

Probable Cause to Search Nasir’s Home and Car

Nasir seeks to exclude evidence found during searches of his home and Dodge Charger.
.Nasir does not challengeJhe-Iegal-sufficiencyjof the warrant underlying these searches, but rather
contends that the “information underlying the application for the search warrant... was fruit of
Jhejjoisonous tree,” (D.I. 51 at 15) Given that the Court has not found any violation of Nasir’s
Fourth Amendment rights, it follows that there is no reason to exclude the evidence found at
these locations.

evidence of criminal activity, regardless of whether that criminal activity is related to the offense
of arrest.”) (citing Ross, 456 U.S. at 820-21). Moreover, it is Nasir’s contention that he was
under arrest at the time the Mercury was searched (see D.I. 51 at 12 (“When Mr. Nasir pulled
into the parking lot of the storage facility, he was stopped by police, handcuffed, and placed in
the back of a patrol vehicle. Mr. Nasir argues that these acts amount to an arrest and that the
information the police had when he was arrested was not enough to support probable cause.”)
(emphasis added)), from which (if accepted) it follows that the applicable standard is supplied by
the “search incident to arrest” standard.
12

^ "4

Case l:16-cr-00015-LPS Document 55 Filed 03/15/17 Page 14 of 14 PagelD #: 267

IV.

CONCLUSION
For the reasons given, Defendant Malik Nasir’s motion to suppress will be denied. An

appropriate order follows.

13

iJ

J?

A

j

\

i

A

.Q^^.eu3Z_2U

;

<

!
;
*
*

■n

t

♦i
i

ocumen

Case 1: . 6-cr-00015-

THE COURT:

1

lie

age (zo

All right.

Let's go ahead and bring

rage

321

i

2

s<

the jury back in.

,i

MR. BROSE:

3

Your Honor?

!
!

'f

4

THE COURT:

Yes.

5

MR. BROSE:

At some point, perhaps now, we would

6

like to move under Rule 29 for a motion for an acquittal,

7

Your Honor.

I guess we can do that now.,

8

THE COURT:

Let's say you've now moved.

9

MR. BROSE:

Right.

10

THE COURT:

If you want to argue it, let's do it

11

after the jury steps out.

12

MR. BROSE:

Okay.

13

THE COURT:

Because we're not going to move

14

forward substantively with the trial at this point.

15

MR. BROSE:

Okay.

16

THE COURT:

Okay.

17

(Jury returned.)

18

THE COURT:

All right.

Ladies and gentlemen, I

I called you back to tell you

19

hope you enjoyed the break.

20

we're actually going to give you an early lunch break.

21

Lunch has arrived, and it's a good point for me to take a

22

longer break.
So I did want to remind you that during lunch

23
24
O C

you are not to talk about the case and tell you that as best
a ey

T

+-d 1

uo

a ro rrninn

4-/~> <-r>Tnr->l e* ■»-<=. +->>«» PVldentiarV

A

Case ljl6-cr-00015-LPS Document 96 Filed 10/02/17 Page 73 of 165 PagelD #: 805
"
322

portion of the trial this afternoon.

2

will probably be reading you those final jury instructions

3

some time this afternoon as well.
But at this point, lunch is here, so we're going

4

'

And I expect that I

1

5

to have you enjoy your lunch.

6

and we'll get started again.

And I'11 get you back here

7

Thank you all.

8

(Jury left courtroom.)

9

THE COURT:

Mr. Brose, if you want to argue your Rule 29

10
11

You can have a seat.

motion you can do so.
Thank you, Your Honor.

12

MR. BROSE:

13

Succinctly, it's our position that the

14

government has not proved Mr. Nasir in possession of either

15

the firearms or the marijuana.

16

for that reason, he should be acquitted.

17
18
19

And it's our contention that

THE COURT:

Okay.

Mr. Logan, do you want to

MR. LOGAN:

Just briefly, Your Honor.

respond.
I think

20

there is sufficient evidence of constructive possession of

21

both the marijuana and the guns for a jury to determine.

22

we would oppose that motion.

23
24

THE COURT:

Okay.

I agree that there is

sufficient evidence, so I'm going to deny the motion and

So

Case l:j|6-cr-00015-LPS Document 96 Filed 10/02/17 Page 164 of 165 PagelD #: 896
413
1
2

MR. LOGAN:

sending it down to the clerk, if it's an exhibit.

3
4

THE COURT:

I'm not quite sure how that will be

done, but I will have Ms. Ghione confer with you.

5
6

Your Honor, I guess the evidence in

MR. LOGAN:

We'll make arrangements with the

appropriate court official.

Thank you, Your Honor.

7

THE COURT:

8

anything else from the government?

9

MR. LOGAN:

No, Your Honor.

10

THE COURT:

Is there anything from the

MR. BROSE:

Your Honor, now that the verdict has

11

Thank you for that.

Is there

defendant?

12
13

been rendered, we would renew our motion for acquittal under

14

the same basis that we argued before since there was not

15

enough evidence for the possession in this case.

16

THE COURT:

Mr. Logan.

17

MR. LOGAN:

Your Honor, as before, there is

18

sufficient evidence here to support the jury's verdict in

19

this case.

20

THE COURT:

And I agree with the government that

21

there is sufficient evidence to support the verdict and deny

22

the motion.

23
24

We will set a call to talk to you all about when
to schedule sentencing or anything further in this matter.

i

r
j.

i

>7

»-

*

7

'
r

Case 1 .6-cr-00015-LPS Document 95 Filed 10/02/17 Page 79 of 249 PagelD #: 562
79
1

2

THE COURT:

Is there anything else you

answered "yes" to?

3
4

Okay.

A JUROR:

That's the only two that really come

to mind.

.5

THE COURT:

Any questions?

6

MR. LOGAN:

No questions.

7

MR. BROSE:

No questions.

8

THE COURT:

Okay.

9

You can have a seat.

Thank

you.

10

(Juror left sidebar.)

11

THE COURT:

Any motion?

12

MR. BROSE:

Your Honor, I move to strike on

13

the basis that she -- her daughter is dating a state police

14 .

officer and she would tend to believe the officer and police

15

testimony.

16

THE COURT:

What is the government's position?

17

MR. LOGAN:

Your Honor, I don't have a real

18

strong one.

19

was instructed.

20

all those issues.

21

objecting.

That she would answer any questions that she
She could stay impartial.

She confronted

I certainly understand why Mr. Brose is

22

THE COURT:

Any response?

23

MR. BROSE:

No response, Your Honor.

24

THE COURT:

I'm going to deny the motion.

I

Case l|16-cr-00015-LPS Document 95 Filed 10/02/17
Page 80 of 249 PagelD #: 563

80
1

anyone could to be fair and impartial,

2

follow the instructions,

3

strike.

4

and I think she would

So I'm denying the motion to

(Juror comes to sidebar.)

5

THE COURT:

6

A JUROR:

7

THE COURT:

8

A JUROR:

9

THE COURT:

10

A JUROR:

11

THE COURT:

12

A JUROR:

Good morning.
Good morning.
Do you know your juror number?
36.
George Robertson?

Yes.
What did you answer "yes" to?
First of all, I don't think I would

13

be a good juror for this
case as being it's a drug related

14

case.

15
16

My daughter is a heroin addict.

My wife and I

have had her in several rehabs and each time
she come out,
the drug dealers preyed on her.

incarcerated over at Third Street at
one of the women's

18

correctional facilities for some actions she did while she

20

THE COURT:

i

t

*

J

I

■t

t

I'm sorry to hear all about that.

So if this case involves allegations of
possession and

22

distribution of marijuana, do you think that given
your

23

experience you wouldn't be able

25

I

was out on drugs.

21

24

1

And right now she is

17

19

!

to be fair and impartial and

assess the evidence that was brought here to
court in this
case?

!

'

Case 1: 6-cr-00015-LPS Document 95 Filed 10/02/17 Page 119 of 249 PagelD #: 602

!

Si
that each side gets to make for no reason at all.

1
’

\

The way we do that in this court is through the

2

3

silent passing of the clipboard back and forth between the

4

government and the defense, so we 11 need to maintain some

5

quiet and some patience during that process.

6

the parties will strike through their peremptories 18 of

7

the 32 individuals who are seated and that will leave the 14

8i.

that remain as our actual jury.

I

i!
i

Ultimately,
«

i/
\

So we will begin with that process just as soon

9
\
\

i

as Mr. Looby is ready.

10
11
12
13

/

THE DEPUTY CLERK:
t

Juror No. 38, please come

forWard and take the first seat in the first row of the jury
box.

All the way down.

14

Juror No. 20, second seat in the first row.

15

Juror No. 2, third seat in the first row.

16

Juror No. 45.

17

Juror No. 4.

18

Juror No. 57.

19

.Juror No. 8.
Juror No. 53, first seat in the second row,

20
21

ss

please.

22

Juror No. 28.

23

Juror No. 43.

24

Juror No. 3.

CaseT:

'-cr-i
120

1
2

r

3
4
5
6
7

Juror No. 55.
Juror No. 31.
Juror No. 14, please take
a seat in the front
bench all the
way against the wall.
Juror No. 29.
Juror No. 49.
Juror No. 15.

.8
Juror No. 27.
9

Juror No. 44.

10
Juror No. 26.
11
12
13
14
15
16

Juror No. 22, you can take
a seat in one of the
black chairs.
Juror No. 17.
Juror No.

30' Please take a seat in the black
chair closest to the aisle.

••1

Juror No. 33.

17
Juror No. 21.
Tj
1
il

18
Juror No. 47.
19
20

Juror No. 12.
Juror No. 37.

21
Juror No. 41.
22
23
a
24
25

Juror No. 50.
Juror No. 32.
THE COURT:

All right.

Preemptory strike period.

We'll begin the silent

/

6-cr-00015-LPS Document 95 Filed 10/02/17 Page 121 of 249 PagelD #: 604
121

(Silent striking takes place.
e

When completed,

2

deputy clerk takes the clipboard back to the Court for

3

review.)

f

a

■■.I

4
■

4

THE COURT:

18
R

5

government to the striking process?

w

6

MR. LOGAN:

No, Your Honor.

7

THE COURT:

And from the defense?

8

MR. BROSE:

No, Your Honor.

9

THE COURT:

Mr. Looby.

'-'t

1

f

Is there any objections from the

10

THE DEPUTY CLERK:

11

to the back of the courtroom.

12

Juror No. 38.

13

Juror No. 2.

14

Juror No. 45.

15

Juror No. 4.

16

Juror No. 57.

17

Juror No. 53.

18

Juror No. 28.

19

Juror No. 31.

20

Juror No. 44.

21

Juror No. 26.

22

Juror No. 30.

23

Juror No. 21.

24

Juror No. 47.

The following jurors, return

